LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 31, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 21-146: CHRISTINE CLIFFORD (AS ADMINISTRATOR OF THE ESTATE
CLIFFORD), ET AL. V. RICHARD FEDERMAN, ET AL.

OF JOHN

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief in Opposition
filed by Respondents Todd Guthrie and TechCXO LLC referenced above contains 4,911
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 31st day of August 2021.

